No. 21-5592

 

 

In THE
Supreme Court of the United States

JOHN RAMIREZ,
Petitioner,

Vv.

BRYAN COLLIER, Executive Director, Texas
Department of Criminal Justice, e¢ al.,
Respondents.

On Writ of Certiorari to the United States
Court of Appeals for the Fifth Circuit

BRIEF OF CHRISTIAN LEGAL Society, THE
ANGLICAN CHURCH IN NORTH AMERICA, BAPTIST
JOINT COMMITTEE FOR RELIGIOUS LIBERTY, THE

ETHIcs & RELIGIOUS LIBERTY COMMISSION OF THE
SOUTHERN BAPTIST CONVENTION, THE GENERAL
CONFERENCE OF SEVENTH-DaYy ADVENTISTS,
NATIONAL ASSOCIATION OF EVANGELICALS, QUEENS
FEDERATION OF CHURCHES, AND THE RUTHERFORD
INSTITUTE AS AMICI CURIAE IN SUPPORT OF
PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,503 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 27, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
